                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: A11120085                                                                      Page 1 of 1



                 We assessed an allegation that a NSF funded researcher 1 violated the Endangered Species
         Act. 2 Our review of the matter determined that the allegation was not substantiated. Accordingly,
         this case is closed with no further action taken.




         2
             16 U.S.C. § 1531 et seq. (1973).




NSF OIG Form 2 (11102)
